<html>
<title> - S. 1110, THE ENGINE COOLANT AND ANTIFREEZE BITTERING AGENT ACT OF 2005</title>
<body><pre>[Senate Hearing 109-377]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 109-377

 S. 1110, THE ENGINE COOLANT AND ANTIFREEZE BITTERING AGENT ACT OF 2005

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON CONSUMER AFFAIRS, PRODUCT SAFETY, AND INSURANCE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
27-356 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




        SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director

                                 ------                                

    SUBCOMMITTEE ON CONSUMER AFFAIRS, PRODUCT SAFETY, AND INSURANCE

                    GEORGE ALLEN, Virginia, Chairman
TED STEVENS, Alaska                  MARK PRYOR, Arkansas, Ranking
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
JIM DeMint, South Carolina           BARBARA BOXER, California
DAVID VITTER, Louisiana




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 18, 2005....................................     1
Statement of Senator Allen.......................................     1
    Prepared Statement of Hon. Martin J. Chavez, Mayor, 
      Albuquerque, New Mexico....................................     9
Statement of Senator Pryor.......................................     2

                               Witnesses

Amundson, Sara, Legislative Director, Doris Day Animal League....    13
    Prepared statement...........................................    15
    Report, dated July 25-26, 2001, from the California 
      Integrated Waste Management Board..........................    20
Bye, Jeffrey, Vice President, Prestone...........................     9
    Prepared statement...........................................    11
Elder, Jacqueline, Assistant Executive Director, Hazard 
  Identification and Reduction, Consumer Product Safety 
  Commission.....................................................     6
    Prepared statement...........................................     7
McCoy, Hon. Kathy A., State Representative from New Mexico.......     3
    Prepared statement...........................................     5

 
 S. 1110, THE ENGINE COOLANT AND ANTIFREEZE BITTERING AGENT ACT OF 2005

                              ----------                              


                         MONDAY, JULY 18, 2005

                               U.S. Senate,
 Subcommittee on Consumer Affairs, Product Safety, 
                                     and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. George Allen, 

Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Good morning. Good morning to everyone. I 
call this hearing of the Senate Subcommittee on Consumer 
Affairs, Product Safety, and Insurance to order.
    We are here to consider S. 1110, a bill entitled Engine 
Coolant and Antifreeze Bittering Agent Act of 2005.
    First, I want to thank our Ranking Member, Senator Mark 
Pryor, from Arkansas, for co-sponsoring this bill with me. 
Thank you for your attendance and interest, and your razorback 
dogs that you brought here as a part of our well-behaved 
audience.
    I also thank our witnesses. I'd like to talk to you all 
more afterwards. We had the K-9 in there, and everyone was in 
such a hubbub, it was hard to get through to you all. But I 
want to thank our witnesses, who come from all over the country 
to share with this Committee their views on this legislation.
    And I also do want to thank the many citizens who have 
shown interest in this legislation. And I thank you all for 
attending.
    They call this the ``dog days of summer,'' and I guess they 
really are literally here in this room. And we all want dogs 
and animals and children to have many happy summers, and that's 
part of the reason for this bill, which is intended to make 
antifreeze a less-dangerous product throughout the United 
States, with national standards.
    When children and animals ingest antifreeze, there is the 
potential that they can be seriously harmed, or, killed. Many 
poisonings in dogs and cats have already been reported over the 
years. This bill envisions a reasonable solution to avoiding 
these types of tragedies. By adding a bittering agent to 
antifreeze, we hope that antifreeze becomes unpalatable to 
animals and to children, and deters them from any further 
ingestion.
    This legislation is to reduce risk, and it's also important 
for commerce and jobs. Radiator fluid manufacturers should be 
given an opportunity to comment on this legislation, because 
it's obviously going to affect their operations and people who 
work for their companies. We need to keep America's businesses 
more competitive. And, also, we want to make sure that prices 
are reasonable for customers.
    I believe this bill takes into consideration all parties 
for reasonable government action that appears to have a 
consensus of support, from people who are animal owners or 
animal lovers, to manufacturers, to customers who would also 
support this idea.
    I look forward to hearing from our witnesses today, to hear 
their perspectives regarding the desirability of this 
legislation.
    And, with that, Senator Pryor, if you'd like to make any 
opening comments before I proceed to introducing our witnesses 
and listening to testimony, we'd love to hear from you.
    Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    I just want to say I'm so delighted to work with you on 
this legislation, and I look forward to working with you to 
help shepherd this through the Senate and through the Congress 
and onto the President's desk.
    This is legislation that's really a win-win situation. I 
know the industry, as well as various consumer groups and 
animal advocacy groups, et cetera--children's groups--have come 
together to try to find a solution that's agreeable to all. We 
all know the nature of the problem, and that is to children and 
animals, antifreeze can taste good. In fact, I think some 
people say it tastes a little bit like soda-pop. And so, as we 
all know, what happens is, maybe in the garage, a container is 
not tightly sealed, or there's a spill in the driveway or out 
on the road, or some carelessly discarded antifreeze, but, 
nonetheless, an animal or a child will have some exposure to 
it, which can have fatal consequences.
    So, I just think that the fact that adding this chemical to 
antifreeze, for pennies a gallon, is a common-sense solution, 
it's one that we already know will work. This chemical we're 
going to talk about today, I think, is the most bitter chemical 
in the world, or one of the most. And so, it's already in a 
number of other products, and it's already proven to be very 
effective.
    And so, Mr. Chairman, thank you for your leadership on this 
in helping steward this bill through the Congress.
    Senator Allen. Thank you, Senator Pryor. And I thank you. 
This needs to be a bipartisan effort, and I thank you for your 
leadership. And we're going to work together as a team.
    And before we listen to the testimony of our witnesses, let 
me introduce each of you briefly so that our audience here in 
the room know who you are.
    First, I want to introduce a Representative from the State 
of New Mexico, Kathy McCoy, a state legislator, who flew in 
last night to join us. Representative McCoy was instrumental in 
enacting similar legislation in the State of New Mexico. She 
also has her own unfortunate personal story to relate.
    Representative McCoy, thank you. Thank you for coming. We 
look forward to hearing your expert testimony, as legislators 
at the Federal level, to learn from what you all have done with 
your leadership in New Mexico.
    Next, we'll hear from Jacqueline Elder, Assistant Executive 
Director for Hazard Identification and Reduction at the 
Consumer Product Safety Commission. She was present at the CPSC 
when a study was commissioned to study the effectiveness of 
bittering agents in consumer products. Her professional 
expertise is appreciated.
    Thank you, Ms. Elder, for being here this morning.
    We'll then hear from Jeff Bye, who's Vice President of 
Prestone, which is a subsidiary of Honeywell. Jeff's company is 
the largest manufacturer of antifreeze in the world.
    Your testimony, Mr. Bye, will be important, because this 
legislation will partially and significantly fall upon your 
shoulders and that of your company. Thank you for being with 
us.
    Finally, we'll hear from Sara Amundson, Deputy Director of 
the Doris Day Animal League. Sara's organization is a strong, 
respected advocate for protecting animals from preventable 
harm, which is, we all agree, a very worthy goal, a goal that 
is furthered, we believe, by this legislation.
    We look forward to hearing your understanding of the way 
that bittering legislation has developed in the goal of making 
antifreeze a safer product throughout the United States.
    Thank you all for being here. We'd first like to hear from 
Representative McCoy.
    Ms. McCoy?

               STATEMENT OF HON. KATHY A. McCOY, 
              STATE REPRESENTATIVE FROM NEW MEXICO

    Ms. McCoy. Thank you, Mr. Chairman, Senator.
    I appreciate the opportunity to appear before you today to 
testify on a topic that will resonate with anyone who holds 
their family pets dear to them. And I also appreciate you 
considering this important legislation in such a thoughtful 
manner.
    For many of us, losing a beloved family pet is like losing 
a member of the family. I'm here today because I lost Cujo, my 
golden retriever, who is pictured here, to a painful and 
prolonged death due to antifreeze poisoning. You have a chance 
today to spare other families by approving this legislation 
before you.
    As a member of the New Mexico House of Representatives, I 
sponsored legislation that requires that a bittering agent, 
denatonium benzoate, be added to antifreeze. My own experience 
is what motivated me being here today. It's been over 20 years 
since I lost Cujo, but I've not forgotten the devastating 
experience. The costs are extremely high, not only financially, 
but emotionally. And anyone who believes that the cost to 
families is low on a tragedy like this would be wrong. Even 
that long ago, my veterinarian bill was in the hundreds of 
dollars, and it was money I could ill afford at the time. My 
dog was aggressively treated for over a week, while I lost 
several days of work keeping vigil by his side. And the attempt 
to save him did fail.
    Today, the cost of treating antifreeze poisoning begins at 
$500, and can go well over a thousand dollars. And, even with 
treatment, more often than not the pet will not survive the 
lethal toxins in antifreeze, which is deadly to kidney tissue. 
Some of the external symptoms that I saw were seizures, 
hypothermia, head tremors, vomiting, and coma. Ultimately, 
kidney failure results in death. Animals that do survive 
after--often have permanent kidney and brain damage. 
Unfortunately, families who do not have the resources to pay 
for treatment are forced to euthanize their pet.
    Compare the cost to the pennies that it is estimated to 
cost manufacturers to add the denatonium benzoate to----
    Senator Allen. Let's do this. From henceforth--let's call 
denatonium benzoate--
    Ms. McCoy. DB.
    Senator Allen. DB. Can we?
    Ms. McCoy. Thank you, Senator.
    Senator Allen. Are you agreed? All right.
    Ms. McCoy. That's fine with me. I always get tongue-twisted 
on that.
    We'd obviously prefer not to burden the manufacturers at 
all, but the high cost of adding this bittering agent can only 
be measured by a family's pain.
    Sadly, most of the poisonings are accidental. One of the 
most common ways for a dog to come in contact is if a family 
car leaks. Its sweet flavor is irresistible to most animals, 
and it is lethal in as little as a quarter of an ounce. For 
example, if a cat just walks through a puddle of it and then 
licks its paws, unless it has immediate veterinary care, that 
cat will likely die.
    And since it tastes good to animals, it is also a method 
commonly used by some to deliberately and cruelly poison 
animals. Because pet owners typically don't report pet deaths 
due to antifreeze poisoning, I can't accurately cite any 
numbers of animal deaths, but I worked with our local shelter 
for 8 years, and I know--there's enough anecdotal evidence to 
know that this is a common occurrence.
    I introduced this legislation in New Mexico, not only 
because of my personal experience, but also because of another 
dog, named Scooby. Scooby was also a golden retriever, and he 
made news in New Mexico when he was shot in the face. He 
managed to survive that ordeal, only to be poisoned while he 
was recovering. Had he not been drawn to the antifreeze, he'd 
still be alive, and the little girl who owned Scooby would be a 
happier child.
    Too often, we discount animal suffering, and rationalize 
that ``they're just animals.'' But they do feel pain, and they 
do deserve to be treated humanely. And their families deserve 
to enjoy their company for as long as possible.
    This legislation before you is a step in eliminating one 
form of suffering. It's been said that the way we treat our 
animals is a measure of our society. Today, we have an 
opportunity to raise the bar of compassion a little bit higher.
    In my opinion, this is win-win legislation. After getting 
this passed in the New Mexico House, I received an incredible 
amount of positive feedback. I got phone calls, letters from 
schools, letters from other people, and people still stop me on 
the street and thank me. It has no downside. It makes 
economical sense, and it's also the right thing to do.
    So, I hope you will move this legislation forward, for 
those of us who have been exposed to the lethal effects of 
antifreeze poisoning and for those who may be exposed in the 
future.
    Mr. Chairman and Senator, that concludes my testimony, and 
I would be happy to answer any questions.
    Senator Allen. Thank you, Representative McCoy, for your 
testimony and your experience. We'll hear from all the 
witnesses, and then we'll pose questions afterwards.
    [The prepared statement of Representative McCoy follows:]

              Prepared Statement of Hon. Kathy A. McCoy, 
                  State Representative from New Mexico
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to appear before you and testify on a 
topic that will resonate with anyone who holds dear their family pets. 
And thank you for also considering this important legislation in a 
thoughtful manner.
    For many of us, losing a beloved pet is like losing a member of the 
family. I'm here today because I lost my Golden Retriever, Cujo, to a 
painful and prolonged death due to antifreeze poisoning.
    You have a chance to spare other families that tragedy by approving 
the legislation before you.
    As a Member of the New Mexico House of Representatives, I sponsored 
legislation that requires that a bittering agent--denatonium benzoate--
be added to antifreeze. (While the bill I sponsored passed both 
chambers, it was actually an identical Senate bill that was signed into 
law by the governor.) The experience I had with my own dog was the 
motivating force.
    It's been over 20 years since I lost Cujo, but I've not forgotten 
the devastating experience. The costs are extremely high, both 
emotional and financial. Anyone who believes there is little cost to 
families who experience this tragedy is flat wrong. Even that long ago, 
my vet bill was hundreds of dollars, money I could ill afford at the 
time. My dog was aggressively treated for over a week while I lost 
several days of work keeping a vigil at his side. The attempt to save 
him failed.
    Today, the cost of treating a poisoning such as this starts at 
$500. Even with treatment, more often than not, the pet will not 
survive the effects of the lethal toxins in antifreeze. Some external 
symptoms are seizures, hypothermia, head tremors, and vomiting. 
Ultimately, kidney failure results in death. Animals that do survive 
may suffer permanent kidney and brain damage.
    And unfortunately, families who don't have the financial resources 
have no real choice other than euthanasia for their pet.
    Compare the cost to the pennies it is estimated to cost 
manufacturers to add denatonium benzoate to a $7 gallon of antifreeze. 
We'd prefer not to burden the manufacturers at all, but the high cost 
of not adding this bittering agent can only be measured by a family's 
pain.
    Sadly, most of these poisonings are accidental--one of the most 
common ways for animals to come in contact with antifreeze is from a 
family car that's leaking it. Antifreeze's sweet flavor is irresistible 
to most animals, and it is lethal in as little as a quarter of an 
ounce. For example, a cat that walks through a puddle and then licks 
its paws will likely die without immediate veterinary care.
    And, since antifreeze tastes good to animals, it is also a method 
used by some to deliberately and cruelly poison animals.
    Because pet owners don't typically report pet deaths due to 
antifreeze poisoning, I can't accurately cite the quantity of animals 
deaths, but having volunteered at our local shelter for eight years, 
I've heard enough anecdotal evidence to know that it is a common 
occurrence.
    I introduced this legislation in New Mexico not only because of my 
personal experience, but also because of another dog named Scooby. 
Scooby, who was also a Golden Retriever, made news in New Mexico when 
he was shot in the face. He managed to survive that ordeal, only to be 
poisoned while he was recovering. Had he not been drawn to the 
antifreeze, he'd still be alive and the little girl who owned Scooby 
would be a happier child.
    Too often, we discount animal suffering and rationalize that 
``they're just animals.'' But they do feel pain. They do deserve to be 
treated humanely. And their families deserve to enjoy their company for 
as long as possible. This legislation before you is a step toward 
eliminating one form of suffering.
    It's been said that the way we treat our animals is a measure of 
our society; today we have an opportunity to raise the bar of 
compassion a little higher.
    In my opinion, this is win-win legislation. After getting this 
passed in the House, I received an incredible amount of positive 
feedback--phone calls, letters, and people even now stop me on the 
street to thank me. This legislation has no downside--it not only makes 
economical sense, but it is also the right thing to do. I hope you will 
move this legislation forward for those of us who have already 
experienced the lethal effects of antifreeze poisoning and for those 
who may be exposed in the future.

    Senator Allen. Now we would like to hear from Ms. Elder.

 STATEMENT OF JACQUELINE ELDER, ASSISTANT EXECUTIVE DIRECTOR, 
 HAZARD IDENTIFICATION AND REDUCTION, CONSUMER PRODUCT SAFETY 
                           COMMISSION

    Ms. Elder. Thank you, Mr. Chairman, and good morning. I'm 
pleased to have this opportunity to come before your 
Subcommittee today.
    I am the Assistant Executive Director for Hazard 
Identification and Reduction at the U.S. Consumer Product 
Safety Commission, or CPSC. The CPSC is a bipartisan 
independent agency charged with protecting the public from 
unreasonable risks of serious injury or death from more than 
15,000 types of consumer products under the agency's 
jurisdiction. The CPSC has delivered critical safety benefits 
to America's families and has made a significant contribution 
to the 30 percent decline in the rate of deaths and injuries 
related to hazardous consumer products. We are proud of our 
mission and our achievements, and we appreciate the support 
that Congress has extended to the agency and to its goals over 
the years.
    In my role at the CPSC, I oversee the technical work of the 
agency within the directorates for epidemiology, engineering 
sciences, economic analysis, health sciences, and laboratory 
sciences. My office is responsible for the collection and 
analysis of death and injury data related to consumer products 
that can lead to the development of voluntary and mandatory 
product-safety standards.
    Today's hearing is on S. 1110, the Engine Coolant and 
Antifreeze Bittering Act of 2005. This legislation amends the 
Federal Hazardous Substances Act, which is administered by the 
CPSC. The legislation would require engine coolant and 
antifreeze to contain a bittering agent to render those 
products unpalatable.
    On that subject, the CPSC was directed by Congress, in the 
Consumer Product Safety Improvement Act of 1990, to conduct a 
study of aversive agents. CPSC completed that study and issued 
a final report on aversive agents in 1992. I will direct my 
comments today specifically to the findings of that 1992 
report.
    The CPSC defined the term ``aversive,'' for the purpose of 
that study, as a substance added to a product with the intent 
of deterring or limiting its ingestion. In 1991, the agency 
conducted a literature review and requested information on 
aversive agents, including bittering and pungent agents, from 
the public in a Federal Register notice. At that time, the 
response to the request for information and the results of the 
review showed that there was a general lack of information 
available on aversive agents, other than one bittering agent, 
DB. The study found that the possible acute toxicity of DB does 
not appear to be a significant issue at the low levels used for 
aversion, such as the 30-to-50 parts-per-million range 
identified in the legislation. DB has been present in many 
household products for years. It has been required to be added 
to ethylene glycol-containing antifreeze by several states 
without documented problems.
    Data concerning the effectiveness of DB to decrease the 
amount of a substance ingested was, and continues to be, 
limited. A child will likely drink some of the product in 
question before he or she can detect the bitter taste. For this 
reason, aversive agents are not recommended for use with highly 
toxic substances that can seriously injure or kill after one or 
two swallows. However, the study noted that nondrug products 
that required child-resistant packaging and have moderate 
toxicity may benefit from the addition of an aversive. Products 
that will not kill or severely injure in the one-to-three 
mouthful range, but are associated with toxicity at higher 
levels, were cited as the most appropriate products for 
aversion addition.
    In this regard, the American Association of Poison Control 
Centers, the AAPCC, evaluated 3.8 million pediatric poisoning 
incidents, and subsequently recommended that aversives be added 
to a few selected products, including ethylene glycol, which is 
referred to in the legislation. The 1992 study concluded that 
aversives, including DB, may be an additional protective 
measure if found to be effective.
    CPSC continues to underscore the importance of child-
resistant packaging and consumer awareness of the proper 
handling and storage of hazardous and toxic substances in the 
home. The 1992 report concludes that aversives alone are not a 
substitute for these measures. However, aversives can be part 
of a comprehensive safety protocol that includes these other 
important components.
    Each year, accidental ingestion of toxic household 
substances is associated with almost 30 deaths to children 
under age five. There are about one million calls to Poison 
Control Centers annually involving children under 5 years of 
age. The CPSC will continue to work aggressively to reduce 
these deaths and injuries.
    We are pleased that the Committee is calling attention to 
these dangerous hazards, and I am pleased to answer any 
questions that the Senators may have regarding this important 
subject.
    Thanks.
    [The prepared statement of Ms. Elder follows:]

 Prepared Statement of Jacqueline Elder, Assistant Executive Director, 
Hazard Identification and Reduction, Consumer Product Safety Commission
    Thank you, Mr. Chairman, and good morning. I am pleased to have 
this opportunity to come before your Subcommittee today. I am the 
Assistant Executive Director for Hazard Identification and Reduction at 
the U.S. Consumer Product Safety Commission or CPSC. The CPSC is a 
bipartisan, independent agency charged with protecting the public from 
unreasonable risks of serious injury or death from more than 15,000 
types of consumer products under the agency's jurisdiction.
    The CPSC has delivered critical safety benefits to America's 
families and has made a significant contribution to the 30 percent 
decline in the rate of deaths and injuries related to hazardous 
consumer products. We are proud of our mission and our achievements, 
and we appreciate the support that Congress has extended to the agency 
and to its goals over the years.
    In my role at the CPSC, I oversee the technical work of the agency 
within the directorates for Epidemiology, Engineering Sciences, 
Economic Analysis, Health Sciences and Laboratory Sciences. My office 
is responsible for the collection and analysis of death and injury data 
related to consumer products that can lead to the development of 
voluntary and mandatory product safety standards.
    Today's hearing is on S. 1110, the Engine Coolant and Antifreeze 
Bittering Act of 2005. This legislation amends the Federal Hazardous 
Substances Act which is administered by the CPSC. The legislation would 
require engine coolant and antifreeze to contain a bittering agent to 
render those products unpalatable.
    On that subject, the CPSC was directed by Congress in the Consumer 
Product Safety Improvement Act of 1990 to conduct a study of aversive 
agents. CPSC completed that study and issued a final report on aversive 
agents in 1992, and I will direct my comments today specifically to the 
findings of that 1992 report.
    The CPSC defined the term aversive for the purpose of that study as 
a substance added to a product with the intent of deterring or limiting 
its ingestion. In 1991, the agency conducted a literature review and 
requested information on aversive agents, including bittering and 
pungent agents, from the public in a Federal Register notice. At that 
time, the response to the request for information and the results of 
the review showed that there was a general lack of information 
available on aversive agents other than one bittering agent, denatonium 
benzoate or DB.
    The study found that possible acute toxicity of DB does not appear 
to be a significant issue at the low levels used for aversion, such as 
the 30 to 50 parts per million range identified in the legislation. DB 
has been present in many household products for years. It has been 
required to be added to ethylene glycol-containing antifreeze by 
several states without documented problems.
    Data concerning the effectiveness of DB to decrease the amount of a 
substance ingested was and continues to be limited. A child will likely 
drink some of the product in question before he or she can detect the 
bitter taste. For this reason aversive agents are not recommended for 
use with highly toxic substances that can seriously injure or kill 
after one or two swallows.
    However, the study noted that non-drug products that require child-
resistant packaging and have moderate toxicity may benefit from the 
addition of an aversive. Products that will not kill or severely injure 
in the one to three mouthful range, but are associated with toxicity at 
higher levels, were cited as the most appropriate products for aversion 
addition.
    In this regard the American Association of Poison Control Centers, 
the AAPCC, evaluated 3.8 million pediatric poisoning incidents and 
subsequently recommended that aversives be added to a few selected 
products, including ethylene glycol, which is referenced in the 
legislation.
    The 1992 study concluded that aversives, including DB, may be an 
additional protective measure if found to be effective. CPSC continues 
to underscore the importance of child-resistant packaging and consumer 
awareness of the proper handling and storage of hazardous and toxic 
substances in the home. The 1992 report concludes that aversives alone 
are not a substitute for these measures. However, aversives can be a 
part of a comprehensive safety protocol that includes these other 
important components.
    Each year, accidental ingestion of toxic household substances is 
associated with almost thirty deaths to children under age five. There 
are about one million calls to Poison Control Centers annually 
involving children under five years of age.
    The CPSC will continue to work aggressively to reduce these deaths 
and injuries. We are pleased that the Committee is calling attention to 
these dangerous hazards, and I am pleased to answer any questions that 
the Senators may have regarding this important subject. Thank you.

    Senator Allen. Thank you, Ms. Elder, for your comments and 
your testimony.
    I'm going to offer into the record this 1992 study that you 
referenced in your testimony. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Senator Allen. I would also say, to Representative McCoy, 
I'm going to also enter into the record a statement of support 
from a mayor in your fair state, your Land of Enchantment, 
Mayor Chavez, who's the Mayor of Albuquerque. And that'll be 
made a part of the record, as well.
    [The prepared statement of Mr. Chaves follows:]

   Prepared Statement of Hon. Martin J. Chavez, Mayor, Albuquerque, 
                               New Mexico
    Mr. Chairman, Honorable Members of the Subcommittee, thank you for 
this opportunity to testify on behalf of S. 1110 and the question of a 
bittering agent for automobile coolant.
    The key ingredient in most cars' antifreeze or coolant, ethylene 
glycol, is deceptively sweet. So there will invariably be occasions 
when puddles or containers of this deadly poison are left out and 
accessible. Very small quantities are toxic, and sometimes lethal.
    So it should come as no surprise that the American Association of 
Poison Control Centers reports thousands of human ethylene glycol 
poisonings per year, some of them fatal. According to their Annual 
Report for 2001, there were 4,938 human exposures to ethylene glycol, 
with 713 of them occurring in children under the age of 6.
    The Washington State University Veterinary Medical School estimates 
that 10,000 dogs alone are poisoned each year. In New Mexico, the 
deaths of 3 children in recent years are also attributed to this 
poison.
    Following the fatal poisoning of a local dog a couple years ago, we 
introduced ``Scooby's Law'' in Albuquerque to require that all ethylene 
glycol based coolant sold within the municipality include the bittering 
agent denatonium benzoate--also known as an ``aversive'' agent--to make 
the poison unpalatable.
    Many tragedies, both locally and nationwide, could be prevented by 
a few drops of this bittering agent.
    Denatonium benzoate has no ill effects on engine performance or 
cooling system life, but it can help prevent the next tragedy for a 
child, a pet or for nearby wildlife. It is the bitterest substance 
known.
    After gaining feedback from the relevant business community, we 
passed the legislation with a phase-in timeline for vendors to comply 
with the new requirement. This allowed gas stations and auto parts 
stores to transition their shelves from existing inventory and to begin 
stocking the modified coolant without serious disruption or financial 
hardship.
    The actual cost for addition of the bittering agent is estimated at 
about two or three cents per gallon. In the eyes of our community, it 
is a cost well worth bearing for the safety of our children, wildlife 
and pets. The feedback has been surprisingly good, and I believe even 
the directly involved business community has seen the virtue of the 
initiative.
    ``Scooby,'' the Golden Retriever who gained statewide fame by 
surviving a gunshot wound in the face, only to later die an 
excruciating death by antifreeze poisoning, highlighted the need for 
this common sense ounce of prevention.
    California and Oregon have already passed statewide laws requiring 
the addition of bittering agents. And likewise we have done so in 
Albuquerque, as have some of our neighboring jurisdictions. But it 
would make much more sense to have a national standard, and that is why 
I am respectfully requesting that you consider making what we in 
Albuquerque call ``Scooby's Law'' the law of the land.
    Thank you again for this opportunity to bring this important issue 
before you and thank you for your consideration.

    Senator Allen. Mr. Bye, we'd now like to hear from you.

       STATEMENT OF JEFFREY BYE, VICE PRESIDENT, PRESTONE

    Mr. Bye. Thank you, Mr. Chairman, Senator Pryor.
    I appreciate the opportunity to talk to you about why, from 
the industry side, we support Federal legislation that is both 
effective and efficient in getting us all where we want to be 
on this issue. I'd like to give you a little bit of background 
as to where we come from, as an industry.
    I work for Prestone Products, which is part of Honeywell 
International. As you well know, that's a large multinational 
corporation, over 100,000 employees worldwide, over 50,000 
employees here in the United States. We are in the 
transportation products group. We also manufacture and sell 
Fram filters, and Autolite spark plugs.
    Prestone, as a brand--as a product, is the largest-selling 
brand of antifreeze in the United States. We produce both 
branded product and store-branded product for our major retail 
partners. We produce that product in three states--New Jersey, 
Illinois, and California--as well as in Mexico City, Mexico. 
And we distribute it through major retailers, mass merchants 
like Wal-Mart, Target, Kmart, automotive retailers like Advance 
Auto Parts, Autozone, Pep Boys, in all 50 states, as well as 
Canada and Mexico.
    Antifreeze itself has been around since the late 1920s. 
Prestone started producing the product in 1927. Back then, it 
was purely ethylene glycol. It replaced water as a coolant/
freeze protector because it has tremendous properties in heat 
dissipation and freeze protection. Over the years since then, 
Prestone has taken a leadership role, from an R&D standpoint, 
in putting additives into that ethylene glycol, but still 
maintaining ethylene glycol as the primary component of 
antifreeze. Those additives that we put in provide corrosion 
protection for cooling systems and improve the heat-and-freeze 
protection characteristics of the product.
    To that end, although ethylene glycol is a tremendous 
chemical for use in a car's cooling system, it does have the 
downside that we're all well aware of, in that it is toxic to 
both people and pets. Prestone has always taken the position of 
doing whatever we can to provide added measures of safety. I 
mean, we put childproof caps on products. We put a secondary 
level of sealant on the product, with a foil wrap. On the 
animal front, we fund veterinary poison hotlines. We fund 
research libraries in the veterinarian community for data to 
get out to the community.
    But, in spite of all of that, over the past X period of 
time there has been a movement afoot to add this bittering 
agent to the product, because, as Senator Pryor points out, 
although I can't speak from experience, it is a very sweet-
tasting product, ethylene glycol, in its natural state. Back in 
1992, a state bill, the first state bill, was passed in Oregon 
to require manufacturers to add bittering agent to deter 
animals from accidentally coming across or consuming the 
product. That was followed with another state bill, in 
California in 2002, requiring manufacturers to add the 
component. Most recently, New Mexico, as we have heard, passed 
legislation last year.
    Our position, up until recently, had been to oppose those 
bills on a state level. And the reason was really twofold. 
Picture, if you will, that we distribute through all of those 
retailers I described, to 50 states. We ship product to Wal-
Mart, who has 37 distribution centers, that then distributes 
out to over 3,000 stores. We have no way of tightly controlling 
that on a state-by-state basis. And our concern was, as 
individual states, and even municipalities, started passing 
legislation that were not all similar, that we could end up 
with, down the road, state-by-state requirements on our product 
that were different from other states. And that becomes very, 
very unworkable, and a logistical nightmare, not only for us, 
but for our retail partners. And, ultimately, it becomes very 
expensive to the end consumer, as they would end up paying a 
lot of those retailers' bills to redistribute that product on a 
state-by-state basis.
    The other issue we had is the bittering agent itself. We 
are experts in automotive cooling systems, we are experts in 
the chemicals we put in to address the needs of those cooling 
systems that the car manufacturers produce. We are not experts 
in bitterants, we are not experts in the toxicity of 
bitterants, we are not experts in the efficacy of bitterants, 
and we are not experts in the long-term effects of those 
bitterants. So, we also opposed it on those levels. We just are 
not experts in that area. We don't know the impact of it.
    In spite of all of that, these bills continue to gain 
support. There are now eight more states that are looking at 
legislation, all slightly different from one another. And, last 
year, the Conference of Mayors supported legislation, or 
supported a movement to pass legislation, on a municipal level.
    It's our position now--and late last year, we partnered 
with the Doris Day group--to support this legislation, because 
we cannot handle state-by-state differences. Whereas, if we 
could get an overarching Federal bill that would allow a 
uniform direction to us, as manufacturers, for what we need to 
do, and let us assume liability and get assigned liability for 
our products that we are experts at, and let the manufacturers 
and the providers of DB have assigned liability for whatever 
their products may do, or not do, it's a win for all of us. The 
people that are concerned about animals and their protection 
win; and we win, as manufacturers, because we have uniform 
direction on what to do; the retailers win, because they get a 
unified product; and the end-consumer wins, because their 
animals will get better protection, and they will not have to 
pay any additional cost for a resulting myriad of products that 
could result without this legislation.
    So, that's our position. Again, like everyone else, we look 
forward to answering questions at the end.
    [The prepared statement of Mr. Bye follows:]

      Prepared Statement of Jeffrey Bye, Vice President, Prestone
    Good Morning. I am Jeff Bye, Vice President for Prestone, a 
Honeywell business. Prestone has been a leader in the manufacture, 
marketing and sale of antifreeze products for over 75 years. I am here 
representing Honeywell as well as the domestic antifreeze industry, 
which has been organized by the Consumer Specialty Products 
Association. We appear before the Committee in support of Senate bill 
1110.
    Honeywell is a diversified technology and manufacturing leader, 
serving customers with aerospace products and services; control, 
sensing and security technologies; automotive products; specialty 
chemicals; fibers; and electronic materials. Based in Morris Township, 
New Jersey, Honeywell's shares are traded on the New York Stock 
Exchange as well as on the London, Chicago and Pacific Stock Exchanges. 
We are one of the 30 stocks that make up the Dow Jones Industrial 
Average and we are also a component of the Standard & Poor's 500 Index. 
The company employs over 100,000 employees, with approximately 55,000 
in the United States, and is comprised of four business units: 
Aerospace, Automation and Control Systems; Specialty Materials, and 
Transportation Systems. Prestone is part of the Consumer Products Group 
within the Transportation Systems business unit.
    Honeywell is the largest manufacturer and supplier of automotive 
antifreeze in the United States, Canada and Mexico. Its Prestone brand 
is the most widely recognized and distributed brand of antifreeze in 
North America. In the United States, our Prestone antifreeze is sold in 
all 50 states and through virtually all major mass retailers, such as 
Wal-Mart, and auto retailers, such as Autozone and Advance. In 
addition, we supply private label antifreeze to most major retailers in 
the United States. We also supply automakers, such as General Motors, 
Ford and Toyota, for the factory fill of their automobiles in North 
America.
    It may be helpful to understand the origin of antifreeze use in the 
automotive industry. Originally, motorists drove cars, such as the Ford 
Model T, without heaters or side and rear windows and, not 
surprisingly, winter driving was very unpleasant. Later, with the 
development of car heaters, installation of side and rear windows, and 
improvements in engines and engine lubricants, motorists drove more 
comfortably and frequently in winter and demand for engine antifreeze 
arose. At that time, many compounds were used with water as a form of 
antifreeze, including honey, sugar, molasses and, the most popular, 
methyl alcohol. Even methyl alcohol, however, had significant drawbacks 
including odor and flammability. Motorists were often uncertain about 
freezing protection afforded by these fluids.
    The antifreeze/coolant business as we know it today began with 
Prestone brand ethylene glycol antifreeze in 1927. It was pure ethylene 
glycol in cans and was packaged with charts showing the protection 
afforded by specific dilutions. The fluid would not evaporate or burn, 
was relatively odorless and offered many advantages over the substances 
used earlier by motorists. A few years later, Prestone developed and 
marketed the first inhibitor in its antifreeze to offer additional 
protection for the cooling system and to retard rust. In the early 
1960s, Ford, General Motors and Chrysler began filling their new cars 
with a 50 percent ethylene glycol and 50 percent water antifreeze/
coolant solution, which led to the emergence of antifreeze/coolant as a 
year-round functional fluid in the automotive industry. Since then, 
Prestone and other producers of antifreeze/coolant have developed their 
formulations to provide even better corrosion protection and extend the 
life of a car's cooling system.
    Ethylene glycol, which is a major ingredient of antifreeze, is 
toxic. For several decades, manufacturers of antifreeze have used foil 
safety seals and childproof caps to guard against the accidental 
ingestion of antifreeze. Prestone provides prominent label warnings 
about proper use, storage and disposal of antifreeze. We fully comply 
with all child protection requirements established by the Consumer 
Products Safety Commission and we are dedicated to continual 
improvement. In addition, manufacturers have participated in public 
education and outreach promoting the safe use and storage of 
antifreeze. During the past 10 years, antifreeze manufacturers have 
supported the American Association of Poison Control Centers in a 
series of public service announcements entitled ``Take Care: Car 
Fluids, Children and Pets.'' These public service announcements also 
help to educate consumers about proper use and storage of antifreeze 
and other automobile fluids.
    Although it is rare that children are accidentally exposed to 
antifreeze, there are occasions where household pets and other animals 
are exposed to ethylene glycol products and are injured by ingesting 
the product. Some animal deaths are likely caused by intentional 
poisoning, such as a disgruntled person targeting a neighborhood dog 
that has been barking at night or causing other problems. Other animal 
fatalities are accidentally caused by antifreeze that has spilled or 
been carelessly left in improperly secured containers. We and other 
antifreeze manufacturers sponsor the Animal Poison Control Center of 
the American Society for the Prevention of Cruelty to Animals as a 
resource and service for veterinarians and pet owners. The Animal 
Poison Control Center is the leading animal-oriented poison control 
center in North America, with a staff of specially trained veterinary 
toxicologists available to handle any animal poison-related emergency, 
24 hours a day, 365 days a year.
    For several years, the animal rights community has encouraged 
local, State and Federal lawmakers to pass legislation requiring 
antifreeze manufacturers to add denatonium benzoate (``DB''), a widely 
known bittering agent, to their product. The animal rights community 
has argued that adding DB to antifreeze would make the product taste 
bitter, discouraging animals from ingesting the liquid. Their 
legislative efforts have met with some success, with laws passed in 
Oregon, California and New Mexico in 1991, 2002 and 2005, respectively.
    Late last year, the antifreeze industry reached out to the Doris 
Day Animal League to develop consensus Federal legislation that would 
address the safety concerns of the animal rights community. The 
consensus Federal legislation--S.1110--would require the addition of DB 
in antifreeze with the goal of rendering the product unpalatable and 
deterring children, pets and other animals from accidental poisoning. 
This Federal legislation would create a national standard. Although 
California, Oregon and New Mexico have passed similar or identical 
laws, the legislation's preemption would avoid the potential 
inconsistency and practical difficulty of manufacturers complying with 
what could become a patchwork of various state and local mandates. At 
least eight other states have been actively considering similar 
requirements, including Massachusetts, Nebraska, Nevada, Maine, New 
York, New Jersey, Tennessee and Washington. Now is the appropriate time 
for Congress to establish a national standard before other states or 
localities pass inconsistent mandates.
    S.1110 shares many of the essential components of the state laws as 
well as legislation introduced in the House of Representatives in 2004. 
The three state laws and H.R. 1560, sponsored in the 108th Congress by 
Rep. Gary Ackerman (D-NY) and Dana Rohrabacher (R-CA), all provide 
liability protection to antifreeze manufacturers for DB. The New Mexico 
law requires antifreeze manufacturers to specifically add DB as the 
bittering agent to their products. The laws in Oregon and California 
and H.R. 1560, which was cosponsored by 110 House Democrats and 23 
House Republicans last year, allow alternatives to DB as the bittering 
additive, but DB is the only chemical that satisfies the legislations' 
bitterness standard at the specified concentration--thereby 
establishing an effective mandate requiring manufacturers to use DB to 
fulfill the state law requirements. H.R. 1560 was re-introduced by 
Reps. Ackerman and Rohrabacher this year as H.R. 2567 as the companion 
bill to S. 1110 and is attracting bipartisan cosponsors.
    The difficulty of managing compliance with a patchwork of 
inconsistent state mandates could be significant and may hinder 
distribution of an adequate supply of antifreeze to some states. The 
effects of state-specific mandates could therefore be felt by 
individual consumers who may pay a higher cost for antifreeze and may 
not be able to buy enough for their needs. A national standard would 
ensure that the mandates are both uniform and cost effective.
    The Federal legislation would also provide fair responsibility for 
the antifreeze and DB products by assigning liability between the 
respective manufacturers. Prestone scientists have developed antifreeze 
products that we stand behind and are willing to defend. Antifreeze 
manufacturers, however, do not manufacture or distribute DB. While 
antifreeze manufacturers are willing to add DB in compliance with a 
national standard, antifreeze manufacturers should not be exposed to 
liability for complying with that mandate. The proposed Federal 
legislation would not change the liability of antifreeze manufacturers 
for their products. Under the legislation, antifreeze manufacturers 
continue to be liable for the ethylene glycol antifreeze itself and DB 
manufacturers and distributors are liable for their bittering agent.
    Honeywell, Prestone and the U.S. antifreeze industry appreciate the 
deliberative approach that Chairman George Allen and Ranking Member 
Mark Pryor have taken in regard to development of S. 1110, The Engine 
Coolant and Antifreeze Bittering Agent Act of 2005. We are ready to 
assist the Committee as it considers the legislation, and we will be 
happy to answer any of the Committee's questions.

    Senator Allen. Thank you, Mr. Bye, for your testimony.
    Now we'd like to hear from Ms. Amundson.

  STATEMENT OF SARA AMUNDSON, LEGISLATIVE DIRECTOR, DORIS DAY 
                         ANIMAL LEAGUE

    Ms. Amundson. Thank you very much, Mr. Chairman and Ranking 
Member Pryor, for not only holding this hearing on S. 1110, but 
also demonstrating leadership on this particular issue that 
will ultimately save the lives of animals and help to prevent 
ingestion by children.
    I'm Sara Amundson, Legislative Director for the Doris Day 
Animal League. We have 350,000 members nationwide who strongly 
support rapid movement of this bill into law. Obviously, you've 
heard from the panel members today that this bill enjoys broad 
support from a variety of animal-advocacy, public-health 
organizations, and also the antifreeze industry. We've 
traditionally been at loggerheads, as Jeff Bye just mentioned, 
on the state level on this issue, but enjoy the privilege of 
working with them to pass this bill into law.
    Obviously, Honeywell is a supporter, the Consumer Specialty 
Products Association, the American Academy of Pediatrics, and 
the Pet Food Institute, in addition to our organization. 
Clearly, you've heard other testimony today as to the nature of 
the toxic antifreeze that our pets are ingesting. In addition 
to that, you've had a clear sense for why DB, as the most 
aversive bittering agent known to humankind, is really the 
choice of chemical to place in this particular product, so I 
won't repeat that particular information.
    We have been tracking ingestions of antifreeze by pets and 
wildlife, and what we've found is that, in one survey, two out 
of three veterinarians see at least one ethylene glycol 
poisoning every single year. The Veterinary School at the 
Washington State University estimates the annual number of dog 
and cat antifreeze poisonings at as many as 10,000. And do keep 
in mind, with those 10,000 poisonings, the preponderance of 
those animals actually do die.
    Fortunately, it's a little bit different situation with 
children. According to the statistics compiled by the American 
Association of Poison Control Centers, approximately 1,400 
children actually ingest antifreeze each year.
    These statistics are alarming, and they're certainly enough 
for us to want to move forward in taking action on the issue. 
DB is clearly the answer for antifreeze, to ensure that, at 
pennies per gallon, we are doing everything we can to use the 
tools available to us to ensure that children and pets are not 
ingesting antifreeze.
    Jeff mentioned a little bit of information with regard to 
what's transpired on the state level, and I do think it's 
important for us to note that there are three states that 
currently have this law in effect. New Mexico's bill, sponsored 
by Representative McCoy, is exactly the same language as we're 
seeing on the Federal level. They've really created a high 
threshold for us to cross. We strongly support the pursuit of 
progressive policy in the states, but, because of the nature of 
interstate commerce, and because these poisonings occur 
regardless of state lines, we must pass a Federal bill to 
ensure that the goal of reducing antifreeze poisonings is 
actually realized. We must extend to each child and every 
animal the extra layer of protection that these states have so 
wisely adopted. And this is only going to be accomplished in a 
timely, sensible, and cost-effective manner by passing a 
Federal bill into law.
    A product that's marketed on a national basis should have a 
national standard to meet, and that's why we, at the Doris Day 
Animal League, feel very strongly that we've got to have the 
Federal mandate on this issue.
    Please do keep in mind that the absence of Federal law 
undermines the effectiveness of the existing state laws. How do 
we prevent antifreeze spills in California from cars driving in 
from the 47 other states that don't require the addition of DB 
to antifreeze? And the lack of uniformity, frankly, is making 
it very difficult to judge just how effective some of these 
newer state laws are.
    Jeff also mentioned that the U.S. Conference of Mayors 
passed a resolution. That resolution was very strongly worded. 
They asked that Congress help protect children and animals in 
cities by enacting Federal legislation. I think that's a very 
powerful testament for why it is that we need to move forward 
with this Federal bill.
    Representative McCoy specifically discussed an incident 
where her own companion animal ingested antifreeze through an 
accident. Oftentimes, these are accidents. But what we've found 
through a variety of case studies is, antifreeze, because it is 
toxic, it's easily available, and it's quite inexpensive, is 
being used, in some cases, as the tool of choice to be able to 
still that barking neighbor's dog that someone is gravely 
concerned about having to contend with. One database recently 
reported on cases in Iowa, Michigan, Montana, Mississippi, 
Texas, Florida, Missouri, and Pennsylvania as all having 
situations where dogs were deliberately poisoned through 
antifreeze.
    We've also been working with a family in Georgia who very 
recently had two dogs deliberately killed by antifreeze 
ingestion from a belligerent neighbor, and we're attempting to 
assist them in seeking justice for these two lovely faces. 
These two dogs were deliberately killed by antifreeze 
ingestion.
    More than half of all American homes actually have at least 
one pet. We owe it to these families to ensure we provide every 
available protection from antifreeze poisonings. Your 
legislation creates an additional tool to assist in preventing 
these tragedies. We respectfully request your support for 
passing S. 1110 into law.
    And this concludes my oral testimony, but I am certainly 
willing to entertain any questions.
    [The prepared statement of Ms. Amundson follows:]

 Prepared Statement of Sara Amundson, Legislative Director, Doris Day 
                             Animal League
    Good morning. Thank you Mr. Chairman and Members of the 
Subcommittee for the opportunity to testify today in support of the 
Engine Coolant and Antifreeze Bittering Agent Act. I am Sara Amundson, 
Legislative Director for the Doris Day Animal League or (DDAL). DDAL 
has 350,000 members and supporters nationwide who strongly support S. 
1110. The organization was founded in 1987 to promote the protection of 
animals through legislative advocacy in the states and on the Federal 
level. DDAL is grateful to Chairman Allen and Ranking Member Pryor for 
their leadership on S. 1110, with the ultimate goal of protecting 
animals and children.
    This bill enjoys broad support from an unlikely coalition of animal 
advocacy organizations, public health organizations, and the antifreeze 
industry. In addition to DDAL, these supporters include the American 
Humane Association, the Humane Society of the United States, and the 
Society for Animal Protective Legislation, Honeywell and the Consumer 
Specialties Products Association, the American Academy of Pediatrics, 
and the Pet Food Institute.
Animals and Children are Exposed to Antifreeze
    For the past fifteen years, the DDAL has been tracking ingestions 
of antifreeze by pets and wildlife. Poisoning occurs with this product 
because it is often inadvertently spilled in our driveways or left in 
open containers in our garages by automotive ``do-it-yourselfers.'' 
Because it is colorful and has a sweet taste, animals and children are 
drawn to it and may quickly ingest a lethal amount. In addition, a 
neighbor wishing to rid himself of a bothersome barking dog or 
wandering cat may purposefully bait a pet, instigating a cruel solution 
to a neighborhood squabble. One teaspoon of ethylene glycol antifreeze 
can kill a cat. Two tablespoons can kill a small, 10-pound dog. One 
survey found that two out of three veterinarians see at least one 
accidental ethylene glycol poisoning each year. The vet school at 
Washington State University estimates the annual number of dog and cat 
antifreeze poisonings at as many as 10,000. And unfortunately, the 
symptoms of poisoning can be misleading, causing the pet lover to think 
the animal is merely sleepy until renal failure causes death.
    According to statistics compiled by the American Association of 
Poison Control Centers, as many as 1,400 children ingest antifreeze 
each year. The U.S. National Library of Medicine Toxicology Data 
Network states that the minimum lethal dose for a 150-pound male is 4 
ounces, which means it takes far less to kill a child. Fortunately, in 
the vast majority of cases, ingestion by children is caught early 
enough to ensure the antidote prevents lethal consequences.
    Ethylene glycol antifreeze has been manufactured for decades by the 
antifreeze industry and due to the ready availability of the chemical, 
we fully expect its continued dominance in the marketplace.
Denatonium benzoate
    The good news is that, unlike many of the issues we grapple with, 
this one has a ready solution. DDAL certainly considers safety caps, 
seals and public education necessary. However, three states and several 
other countries have chosen to add another tool, which is requiring the 
addition of denatonium benzoate to antifreeze available in the consumer 
market. Denatonium benzoate (DB) is one of the bitterest substances 
known and available to us. In 1963, the Food and Drug Administration 
approved the addition of DB to cosmetic and toiletry products including 
nail polish, hair spray and cleaners as a safety mechanism to deter 
children from ingesting them. The U.S. Bureau of Alcohol, Tobacco, 
Firearms and Explosives (27 CFR 21.76) requires that all industrial 
alcohol-based products contain a bittering agent and specifically 
requires the use of DB in certain products as a denaturant, making the 
product unpalatable. The addition of the bitterant has not compromised 
the usefulness of the products.
    The required addition of denatonium benzoate to consumer-packaged 
antifreeze will save thousands of animal lives and prevent hundreds of 
children from being sent to emergency rooms each year. DDAL strongly 
urges your support of this small measure, literally costing pennies per 
gallon, to achieve significant, beneficial consequences.
California State Law
    The Doris Day Animal League has a long history of lobbying in 
support of state legislation to require the addition of denatonium 
benzoate to make antifreeze unpalatable to both animals and children. 
In 1993, in response to concerns from veterinary emergency rooms, DDAL 
members who had lost a beloved pet, the death of a California condor, 
and the startling statistics on children gathered annually by the 
American Association of Poison Control Centers, we successfully lobbied 
the California Legislature to require the addition of denatonium 
benzoate to antifreeze and coolant products. In spite of significant 
opposition mounted by the manufacturers of antifreeze, the bills passed 
with overwhelming votes in both the California Assembly and Senate. 
Unfortunately, the governor vetoed the bill.
    Then in 2000, after losing her family's beloved dog Angus to 
antifreeze poisoning, Californian Lauren Ward began researching the 
solution to her family's tragedy. She contacted her state legislators 
to demand to know why the simple addition of DB to antifreeze to help 
prevent these unnecessary deaths wasn't required by the state. 
Fortunately, her assemblyman agreed to introduce a bill to require the 
bitterant be added.
    Our research in support of the California bill demonstrated that in 
the 10 years that had passed, despite the voluntary efforts by the 
antifreeze industry to educate the public, there was little progress in 
reducing the numbers of animals and children poisoned by ingesting 
antifreeze. In 2001, 13 California veterinary clinics reported 136 
cases of antifreeze poisoning with 107 deaths. Working with Lauren Ward 
and Members of the California State Senate and Assembly, we lobbied 
again for passage of an antifreeze bittering bill. The California 
Medical Association, American Academy of Pediatrics, California 
Veterinary Medical Association and the California Integrated Waste 
Management Board all supported the legislation. Over the objections of 
the antifreeze industry, the bill passed and was signed into law in 
2002.
    Subsequently, we have worked with legislators in New Mexico, 
Nevada, and several other states to support bills to require the 
addition of denatonium benzoate to antifreeze. This year, New Mexico 
became the third state to pass this bill into law. And the language is 
identical to the Federal bill before you today.
    While DDAL certainly supports the pursuit of progressive policy by 
states, because of the nature of commerce in this country and because 
these poisonings occur regardless of state lines, it is imperative to 
pass a Federal bill to ensure that the goal of reducing antifreeze 
poisonings is realized. It is important to extend to each child and 
every animal the extra layer of protection that these states have so 
wisely adopted. This can be accomplished in a timely and sensible 
manner only through Federal action. A product marketed on a national 
basis should have a national standard to meet. Moreover, the absence of 
a Federal law undermines the effectiveness of existing state laws: The 
ease of interstate transportation necessitates a uniform policy to 
prevent antifreeze spills in California from cars driving into the 
state from Nevada. It is impossible to judge the effectiveness of these 
new state laws based on the interstate nature of the problem. In fact, 
the U.S. Conference of Mayors, at its 2004 annual meeting, passed a 
resolution urging Congress to ``help cities protect children and 
animals by enacting legislation'' to require the addition of DB to 
antifreeze.
Conclusion
    Antifreeze poisoning causes animals great suffering, and often 
death. In addition to the accidents that happen, DDAL knows of numerous 
cases where individuals have deliberately given antifreeze to animals 
because they wanted to kill them. One database recently reported on 
cases in Iowa (where authorities at the time were investigating 8 
cases), Michigan, Montana, Mississippi, Texas, Florida, Missouri and 
Pennsylvania. We have been working with a family in Georgia that is 
trying to get justice for their two dogs killed by a belligerent 
neighbor. And of course, Representative McCoy, who successfully carried 
the bill in New Mexico, lost her own companion animal in the same way.
    Where the perpetrator is known, it often is a neighbor; 
occasionally it is an adolescent just starting down the path of 
antisocial behavior. They use antifreeze because it is easy to get, 
easy to give, and almost guaranteed to kill.
    Accidents can happen despite the best prevention and precautions, 
and sadly there are always those who seek an easy way to harm animals. 
This legislation will do much to prevent both kinds of tragedies from 
happening.
    Please support S. 1110, the Engine Coolant and Antifreeze Bittering 
Agent Act.

    Senator Allen. Your statements will be made part of the 
record.
    Let me start with Representative McCoy, since your 
legislation is the model, as far as Senator Pryor and I are 
concerned, for the Nation. Do you know if there are any 
environmental concerns associated with DB? It's important for 
us to understand, from your experiences, if you've heard of any 
environmental problems due to this additive.
    Ms. McCoy. Mr. Chairman and Senator, DB was approved in 
1963, and is currently used in all types of products. It's used 
in paints, nail polish, household cleaners, windshield-washing 
fluids, deer repellent, and many others. I'm, too, very 
concerned about any detrimental effects to the environment. I 
happen to be a charter member of Republicans for Environmental 
Protection, so I care about these things.
    But if--with your permission, I would like to share a short 
exchange between Nevada Senator Carlton and Vern Rossi, who is 
Deputy Administrator of Federal Facilities and Waste Management 
Programs, Division of Environmental Protection, Department of 
Conservation and Natural Resources.
    Senator Allen. Boy, that's a mouthful.
    Ms. McCoy. It's a mouthful. The title is long.
    [Laughter.]
    Senator Allen. That's Federal, not Nevada, right?
    Ms. McCoy. Yes. I believe so, yes, sir. I'm just going to 
read the Q&A, if that's all right with you, Senator.
    ``Senator Carlton. I would like Mr. Rossi to come forward 
with information on the environmental effects of DB.
    ``Mr. Rossi. We regulate antifreeze as hazardous waste if 
it is not going to be recycled. If it is to be recycled, we are 
not concerned, because it is not going into the environment. 
Adding a bittering agent to antifreeze will not change 
regulations of those materials. The disposing or handling of 
antifreeze is a great concern.
    ``Senator Carlton. There is some confusion about the 
environmental impact of DB. One group is saying there will be 
no impact on the environment, and the other group is saying 
there's a risk. If antifreeze enters a water source, it will 
contaminate it immediately.
    ``Mr. Rossi. That is a concern. It does not matter if an 
additional chemical is added to antifreeze. It still has the 
potential to pollute a water source. Improper disposing of 
antifreeze is not acceptable.
    ``Senator Carlton. Has there been any research on the long-
term environmental effects of DB?
    ``Mr. Rossi. I've not seen any data that causes me to 
believe that a bittering agent will add to the environmental 
issue.
    ``Senator Carlton. Would it still be a problem with 
antifreeze entering groundwater, whether or not DB was added?
    ``Mr. Rossi. Yes. The proper disposal of antifreeze is 
always a concern.''
    So, that--I think that exchange, coming from what I would 
consider a--expert testimony, speaks to the issue of 
environmental concerns.
    Thank you, Senator.
    Senator Allen. Thank you, Representative McCoy. That makes 
a great deal of sense.
    Ms. Elder, you mentioned that DB has been in household 
products for, really, decades now. Is there any evidence that 
DB has caused any harm by being added to products like paint to 
keep children from eating that, or nail polish or other 
products?
    Ms. Elder. Are you speaking specifically of environmental 
types of issues?
    Senator Allen. Right. Environmental or any other added 
hazard or risk by having that bittering agent in a household 
product.
    Ms. Elder. We did note, in the study that we did, that we 
weren't able to identify any instances of environmental damage. 
We did note, also, that DB does not completely biodegrade and 
that the effects on groundwater were unknown. But those 
environmental issues are probably best handled by the 
Environmental Protection Agency, who would have much more 
expertise in that area.
    Senator Allen. Well, you mentioned there's no documented 
problems in the states that have required the addition of DB to 
their antifreeze. Is there any reason to suspect that that 
would change if we had Federal national legislation?
    Ms. Elder. No. The data that we have is limited, and we 
just don't know that.
    Senator Allen. All right, thank you.
    Mr. Bye, you all have changed your positions on this issue, 
from years ago. Let me ask you this. It's good to know 
Honeywell, or Prestone, is in favor of this legislation. Is the 
entire retail antifreeze industry in support of this 
legislation?
    Mr. Bye. Yes, they are, in fact. The domestic producers are 
all in favor of this, primarily for the reason I said, just 
from a pure logistics and operational standpoint. If we were to 
get to the point where different states required different 
products--either with a different bittering agent, with 
different amounts of bittering agents--it would become a very, 
very difficult situation in the way that we do business. So, to 
that end, we are all in favor of it.
    Senator Allen. Does Honeywell or Prestone have a concern 
about additional cost since they do not manufacture DB. You're 
talking about this costing, what, pennies per gallon?
    Mr. Bye. Correct.
    Senator Allen. Could you give us the exact range, so we 
know? What does a gallon of antifreeze cost, presently?
    Mr. Bye. There's a long----
    Senator Allen. Not subject to----
    Mr. Bye.--answer and a short answer.
    Senator Allen.--sales taxes and all the other things that 
get added on, but----
    Mr. Bye. It costs, plus or minus, four to six dollars, 
depending upon the price of ethylene glycol, which is a 
commodity. The DB, as we use it today, because we do put it in 
for the states required, is less than three cents a gallon.
    Senator Allen. Three cents a gallon.
    Mr. Bye. Correct.
    Senator Allen. Less than.
    Mr. Bye. Yes.
    Senator Allen. All right. Are you concerned that the cost 
for this product will go up? Could there be a monopoly for 
those who manufacture DB?
    Mr. Bye. I don't think so, only because--and I'll speak, 
again, to our source from it--we buy it from a domestic source 
who also supplies a number of those other inhibitors that I 
mentioned that go into antifreeze for corrosion protection and 
what have you. And the DB that we purchase is, far and away, 
the smallest component that we buy from this company, and would 
buy from the other companies. So, I think if there were 
included across the board, (a) you're still talking about a 
very small amount. It would still be considerably less than the 
other products we buy from them, so we would have that 
leverage. And you would create competition, I would think, 
among the other suppliers of DB, because there are other 
suppliers. So, I think, in general, we wouldn't see any issue 
with that.
    Senator Allen. Also, let me ask you this. In three states 
that require this DB--and New Mexico is the model state law--
has there been any harm caused to car engines, like corrosion, 
due to the addition of DB to the antifreeze?
    Mr. Bye. No, none that we're aware of. And we've tested DB 
in cooling systems to understand its performance in a cooling 
system--again, not to its performance as a bitterant--and that 
is another area of concern for us, because if we were to get 
into other bittering agents that may be out there, they have 
not been tested for their performance in automotive cooling 
systems. So, we're very comfortable with DB, on that front.
    Senator Allen. All right. So, there are other bittering 
agents. And so, DB, at least has been tested out, proven not to 
be any additional risk to the environment or added health risk 
to it, and also not harming the engine--or the radiator 
cooling----
    Mr. Bye. Our concern is harming the engines, and we see no 
effects of it.
    Senator Allen. Ms. Amundson, are you aware of any problems 
with respect to human health or the environment related to DB, 
since you all have been such strong advocates for a long while 
on this?
    Ms. Amundson. No, we certainly are not, and would be 
gravely concerned if there were issues related to environmental 
degradation.
    I'm going to read, if I may, into the record from a report 
that was commissioned by the California Integrated Waste 
Management Board in 2001, when they took a very careful look at 
the potential for adding DB into antifreeze in the State of 
California. And they did, in fact, support that particular 
bill.
    They state, through a staff study, that DB, ``readily 
biodegrades. Its transport is attenuated by soil, and it is 
easily treated in sewage-treatment systems and drinking-water 
systems. Staff has determined that the addition of DB to 
antifreeze would not lead to any adverse health or 
environmental effects.''
    Senator Allen. What was that report, again, Ms. Amundson?
    Ms. Amundson. That is the 2001 California Integrated Waste 
Management Board, the entity for really ascertaining how to 
dispose of waste, and that would include chemical waste.
    Senator Allen. Thank you. If you could provide that to the 
Committee, I'd like to make that report a part of the record.
    Thank you.
    [The information referred to follows:]

              California Integrated Waste Management Board,
                                   Board Meeting, July 25-26, 2001.
                             Agenda Item 2
Item
    Consideration Of Staff Recommendations For Addressing The Impacts 
Of Antifreeze On Public Health And Safety In California
I. Summary
    This item presents staff's recommendations to reduce the impact on 
health and safety that occurs from the use of antifreeze coolant in 
California. The most commonly used antifreeze in California is 
formulated with ethylene glycol, which is poisonous. Antifreeze 
products have a sweet taste and appealing color that may be attractive 
to animals and children. Drinking as little as one or two ounces can 
lead to death in a small child. A cat can receive a lethal dose from 
licking its paws after walking through spilled antifreeze. Improper 
storage or handling of antifreeze contributes to hundreds of human 
exposures in the state annually. Leaks from improperly maintained motor 
vehicles and improper storage and disposal leads to thousands of animal 
exposures each year. In addition, this product is effective and easy to 
use for intentional poisoning of domestic animals and wildlife.
    Two methods are available to reduce or eliminate the hazards of 
ethylene glycol based antifreeze to humans, while providing comparable 
product performance. One is to add an aversive agent to ethylene glycol 
antifreeze to deter ingestion. The state of Oregon requires the 
addition of the aversive agent denatonium benzoate to ethylene glycol 
based antifreeze sold at the retail level. Other countries also require 
the addition of this bittering agent to ethylene glycol based 
antifreeze. California legislation was introduced in 1993 to require 
the addition of a bittering agent to ethylene glycol antifreeze 
products. The governor vetoed the bill.
    Another method to reduce poisoning from antifreeze exposures is to 
eliminate the use of ethylene glycol based antifreeze and replace it 
with the much less toxic propylene glycol formulated antifreeze. The 
chemical propylene glycol is used in numerous prepared foods and 
medicines and is a common food additive. Propylene glycol based 
antifreeze was introduced to the California market in 1994 and is 
readily available, currently constituting about 5 percent of the 
market. Propylene glycol based antifreeze provides comparable product 
performance as the ethylene glycol based antifreeze. The leading 
antifreeze manufacturer, Prestone, offers a propylene glycol based 
antifreeze marketed under the brand name LowTox, and Old World 
Industries produces the Sierra brand. Both are sold throughout the 
state at competitive prices to ethylene glycol antifreeze. At least two 
other countries require the retail sale of propylene glycol based 
antifreeze as a safer substitute.
    Antifreeze manufacturers oppose replacing ethylene glycol based 
antifreeze with propylene glycol based antifreeze or to adding an 
aversive agent to ethylene glycol based antifreeze. The requirement of 
the child resistant caps is cited as having reduced poisonings. 
Industry does support public education efforts to prevent exposures and 
poisonings. The greater chemical industry produced a video on safe use, 
storage and disposal of antifreeze several years ago, and may develop a 
new video in the next few months. Significant public education may 
reduce the number of exposures. The incidence of poisonings to children 
and adults, domestic animals and wildlife would be further diminished 
if reformulation or the addition of an aversive agent is required.
    Staff recognize that there are significant barriers to the 
conversion from ethylene glycol to propylene glycol based antifreeze. 
While propylene glycol would provide the greatest protection, staff 
recommend that the addition of aversive agents be required for all 
ethylene glycol antifreeze products. No significant barriers to the 
immediate addition of the aversive agent, denatonium benzoate were 
identified.
II. Previous Board Action
    At the January 2000 meeting, the California Integrated Waste 
Management Board (Board) directed staff to review methods to 
significantly reduce the number of human and animal poisonings from 
antifreeze exposures. Then at the August 2000 Board meeting, staff 
presented background information and findings from research and 
discussions with antifreeze industry representatives. Numerous options 
to address the antifreeze poisoning problem were presented to the 
Board. The Board directed staff to continue researching the highest 
options presented for reducing poisonings from antifreeze use and to 
return with recommended actions.
III. Options for the Board
    Board Members may consider one or more of the following actions:

        1. Direct staff to develop a legislative proposal to phase in a 
        ban on the sale of ethylene glycol formulated antifreeze and 
        promote the use of propylene glycol formulated antifreeze or 
        other significantly less toxic alternatives.

        2. Direct staff to develop a legislative proposal to require 
        the addition of an aversive agent, such as denatonium benzoate, 
        to ethylene glycol based antifreeze.

        3. Direct staff to study the issues further and bring back 
        recommendations for consideration in the future.

IV. Staff Recommendation
    Staff recommends that the Board approve Option 2 as the most 
prudent way to protect human health and safety and reduce animal 
poisonings in California.
V. Analysis
Background
    The Board directed staff to review methods to significantly reduce 
the number of human and animal poisonings from antifreeze exposures at 
the January 2000, meeting. Staff proceeded to interview chemical and 
antifreeze manufacturers, recyclers, local and state government, 
automotive manufacturers and service representatives and veterinary and 
other medical professionals. A task force meeting was held September 
28, 2000. Staff researched issues raised by all parties. The goal was 
to investigate changes that could be made to reduce the effects caused 
by ethylene glycol based antifreeze exposures.
    The antifreeze manufacturing industry is opposed to mandating 
propylene glycol based antifreeze to replace ethylene glycol antifreeze 
or adding an aversive agent to ethylene glycol antifreeze. In addition 
to child resistant caps, which has reduced poisoning incidences, 
industry advocates public education as the most appropriate mechanism 
to further decrease poisoning exposures. Industry produced a public 
service announcement several years ago, and has played it through 
television station and cable systems throughout the country including 
California. They are now planning to produce a new California specific 
video, which will replace the original video. Industry would like the 
Board to endorse the video. Staff has recommended that the 1-800-
CLEANUP number be included in the video; however, further support and/
or involvement would be at the Board's discretion.
    Staff produced an in-house fact sheet on antifreeze about five 
years ago. Staff is revising the fact sheet to provide stronger 
messages to reduce accidental child and pet exposures. The fact sheet 
will provide additional information on the safe storage and use of 
antifreeze and a description of the safer propylene glycol based 
alternative. Staff will also work with household hazardous waste 
coordinators to encourage them to increase promotion of the safer 
antifreeze (e.g., signs placed at the point of purchase indicating that 
a product is an alternative to a more hazardous product).
    Staff is working with the California Poison Control System (CPCS) 
to obtain information on the circumstances surrounding childrens' 
exposures. By examining exposures, staff can provide better outreach to 
local government household hazardous waste program coordinators and to 
residents. In addition, staff will provide local household hazardous 
waste program managers information about the services provided by CPCS.
Key Issues:
Ethylene Glycol Toxicity and Antifreeze Exposures
    Ethylene glycol is an odorless, sweet tasting poisonous chemical 
used in the production of antifreeze and many other products. Ethylene 
glycol can adversely affect humans through ingestion, inhalation or 
contact with the eyes and/or skin. Exposures and poisonings from 
ethylene glycol based antifreeze are regularly reported to poison 
control centers. In 2000, 564 calls were made to the California Poison 
Control System hotline regarding ethylene glycol based antifreeze. Past 
statistics in California have not been comprehensively available so a 
trend of exposures is not available. Nationally, there were 5,376 human 
exposures with nine deaths in 1998 caused by ethylene glycol 
antifreeze. Unintentional exposures accounted for 4,932 of the cases.
    According to the U.S. National Library of Medicine's Toxicology 
Data Network, for a 150 pound adult the minimum lethal dose of ethylene 
glycol is 100 ml or 4 ounces, while propylene glycol's minimum fatal 
dose level is probably over 32 ounces. There is an antidote for 
ethylene glycol antifreeze poisoning called Antizol. However, an 
antidote treated patient still may have to be managed for other life 
threatening conditions that may arise.
    A much lower dose of ethylene glycol based antifreeze can kill 
animals with as little as one teaspoon for a cat and two tablespoons 
for a 10-pound dog. Animal exposures are more difficult to quantify 
because veterinarians are not required to report these poisoning 
occurrences. Reported poisonings include wild and domesticated animals, 
with some documented intentional poisonings. Some wild animals such as 
marmots have been known to chew through vehicle coolant hoses, while 
dogs have been known to chew the necks of antifreeze containers and 
ingest the antifreeze. In 1993, a California condor, an endangered 
species, died from ingestion of ethylene glycol.
    In 1996 the American Society for the Prevention of Cruelty to 
Animals conducted a phone survey of animal care professionals and 
concluded that 118,000 domestic animals were poisoned in the U.S. by 
spilled or discarded antifreeze. The National Animal Poison Control 
Center believes that this figure is greatly exaggerated. A more 
conservative estimate of animal poisoning exposures is from Washington 
State University Veterinary Medicine School with at least 10,000 dog 
poisonings annually. Diagnosis and treatment of a pet ingestion of 
ethylene glycol based antifreeze can be delayed due to misleading 
symptoms. For example, a dog would get sick after ingesting antifreeze, 
and then appear to improve. Meanwhile, renal failure occurs and it is 
too late to save the dog.
    Leaks from improperly maintained motor vehicles and improper 
storage of antifreeze as well as illegal disposal leads to thousands of 
animals' exposures each year. A national survey found that two out of 
three veterinarians see at least one accidental ethylene glycol animal 
poisoning each year. This would amount to over 7,000 poisoning 
exposures in California alone. This may be a conservative estimate 
because there certainly are animals that do not survive to return home 
and wildlife that will not have a chance to receive medical treatment. 
(And though the California Poison Control System hotline is not for 
animal emergencies, 53 calls were made regarding pets with one death 
documented in 2000.)
    Appearing like common beverages, the attractiveness of antifreeze 
is a significant concern. Antifreeze comes in bright colors, similar to 
beverages such as Kool-Aid and Gatorade that are recognized by 
children. Industry indicated that the colors used in antifreeze 
products are market driven, so that service providers can quickly 
identify the types of antifreeze or other fluids they are installing. 
Because of worldwide distribution, changing the color or appearance of 
antifreeze does not appear to be a reasonable undertaking at this time.
    Environmentally, both types of antifreeze biodegrade fairly 
rapidly--in as few as several days depending upon conditions. (Heavy 
metals from vehicle engines do, however, remain in the environment 
after the antifreeze breaks down.)
Option 1--Propylene Glycol Alternative
    Propylene glycol based antifreeze is an alternative to ethylene 
glycol based antifreeze, and has a significantly lower degree of 
toxicity to humans and animals. Used in a variety of consumer products, 
propylene glycol is also added to food products and is listed by the 
U.S. Food and Drug Administration as either approved as a food additive 
or listed or affirmed as Generally Recognized As Safe (GRAS). Taken 
internally, a small amount of propylene glycol is harmless to humans. 
Though not considered GRAS for cats, the degree of toxicity to this 
species is significantly reduced compared to ethylene glycol ingestion. 
There is no language on either Low Tox or the Sierra brands of 
propylene glycol based antifreeze container labels to indicate that 
consumers need restrict its use for any vehicle type. There is also no 
language (such as special formulations required by some auto 
manufacturers) for restrictive use for any vehicle type on the ethylene 
glycol based antifreeze product containers either. Propylene glycol 
based antifreeze is commonly used in marine vessels as well as 
recreational vehicles throughout the country. Some auto manufacturers, 
however, do caution the consumer in the owner's manual to use the 
manufacturer's own brand of antifreeze because of special additives and 
formulations. Though one auto manufacturer indicated in the owner's 
manual that it is necessary to use their brand of antifreeze, and non-
use could void its warranty, the same manufacturer stated that it is 
rare to void a warranty by use of a fluid. Another manufacturer does 
not promote propylene glycol based antifreeze but has accepted it, and 
along with other automotive manufacturers state its use would not void 
their warranties. And although no auto dealership surveyed installed 
propylene glycol based antifreeze, some of them will, upon owner 
request, put it in vehicles.
    Propylene glycol based antifreeze is used extensively in Austria 
and Switzerland, where it is the only antifreeze sold at the retail 
level. In France and Italy, only propylene glycol based antifreeze is 
sold in those stores that also sell food.
    Industry concerns not addressed above are outlined below in bold, 
followed by information gathered by staff in response:

    1. The performance capabilities of propylene glycol based 
antifreeze in automotive vehicles are not adequate. The propylene 
glycol based antifreeze on the market currently meets the American 
Society for Testing and Materials (ASTM) standards for cars and light 
duty trucks as well as for heavy-duty vehicles.

    2. There are no ``extended life'' propylene glycol antifreeze 
formulations available. Extended life antifreeze has only been 
available for several years and is a small but growing segment of the 
market. Propylene glycol manufacturers say the market for these 
formulas has not been large enough to warrant manufacturing such 
products, however, a propylene glycol based antifreeze extended life 
package can be made.

    3. Replacing all ethylene glycol based antifreeze with propylene 
glycol based antifreeze in California would create market problems. The 
California market for antifreeze is about 20 million gallons per year. 
That amount constitutes about 40 percent of the total propylene glycol 
produced in the U.S. annually. A phased approach would be necessary to 
maintain supply and market stability as well as to allow time to test 
and approve special formulations.

    4. A rapid market swing from ethylene glycol based to propylene 
based antifreeze would impact the market for recycled ethylene glycol. 
Auto manufacturers recommend that antifreeze be changed every few years 
depending on vehicle use. Because of the time between full market 
availability of propylene based antifreeze and the years between 
change-outs, the waste stream will contain significant amounts of 
ethylene glycol for many years. A ``phased in mandate'' approach would 
maintain a stable market for ethylene glycol as the proportion of 
propylene glycol to ethylene glycol increases in the antifreeze waste 
stream.

    5. Recycled ethylene glycol can not contain more than 15 percent 
propylene glycol and meet the market standard. Currently, the 
antifreeze waste stream contains about 5 percent propylene glycol based 
antifreeze. However, recycling propylene glycol based antifreeze only 
allows 1 percent of other glycols to be added to it. Following a 
mandate to reformulate with propylene glycol, the antifreeze waste 
stream will contain increasing amounts of propylene glycol. Generators 
may need to segregate the two types of waste antifreezes with separate 
storage tanks needed for recyclers. Alternatively, recyclers would need 
to install systems to separate propylene glycol and ethylene glycol. In 
any case there would be significant cost involved.

    6. Topping off autos running on ethylene glycol based antifreeze 
with propylene glycol based antifreeze will lead to compatibility 
problems. Antifreeze manufacturers and auto manufacturers are concerned 
that mixing two types of formulations in a vehicle may lead to reduced 
performance or even failure of cooling systems because of possible 
incompatibility of additives.

    7. Propylene glycol costs significantly more than ethylene glycol 
and industry profit margins are already slim. The retail cost of the 
two types of antifreeze overlap. Retail ethylene glycol based 
antifreeze costs $4.00-$6.00 per gallon while propylene glycol based 
antifreeze costs $4.50-$7.00 per gallon. Any increase in costs would be 
passed onto the consumers resulting in a level playing field for 
manufacturers.

Option 2--Aversive Agent Alternative
    The other alternative to reduce poisonings from the ingestion of 
ethylene glycol is to add an aversive agent. Denatonium benzoate is 
considered the most bitter substance known. From studies reviewed, it 
is highly effective for humans; and dogs have exhibited symptoms of 
grimacing, gagging and even vomiting upon ingestion of products 
containing denatonium benzoate. The taste of the agent may not repel 
all animals, but the American Association of Poison Control Centers has 
recommended that aversive agents be added to ethylene glycol products. 
Aversive agents are currently used in other household products 
including pesticides to deter ingestion. Industry is concerned that if 
an aversive agent were added to ethylene glycol based antifreeze, 
consumers would be less vigilant in storing and managing the product. 
Staff does not necessarily agree. However, even if the number of 
exposures does not decrease, the amount of product ingested will 
decrease.
    Addition of denatonium benzoate is very inexpensive, costing $0.02-
$0.03 per gallon of a $5 per gallon product. Addition of denatonium 
benzoate to the approximately 20 million gallons of antifreeze used in 
California would cost about $500,000 a year. This cost is relatively 
small compared to the $100 million dollar market and the cost would be 
passed on to consumers. This amount is also small compared to the 
medical costs and work time lost as well as suffering that occurs from 
exposures to this product
    Denatonium benzoate readily biodegrades, its transport is 
attenuated by soil, and it is easily treated in sewage treatment 
systems and drinking water systems. Staff has determined that the 
addition of denatonium benzoate to antifreeze would not lead to any 
adverse health or environmental effects.
    The State of Oregon passed a bill in 1993 that requires the 
addition of a bittering agent in ethylene glycol antifreeze sold at the 
retail level. A similar bill was vetoed by the Governor in California 
in 1993. His veto message said denatonium benzoate would not decrease 
the number of exposures to the product and it had not been proven 
effective as an animal deterrent. He also said that it was premature 
for the state to require manufacturers add bittering agents to products 
before these substances are fully evaluated and determined to be 
effective. In response, staff note that the addition of denatonium 
benzoate may not prevent exposures, but it would significantly reduce 
the amount ingested, hence the severity of exposures. Numerous studies 
have shown that it does repel animals, though until it is used 
extensively in antifreeze, the magnitude of its effectiveness for 
animals in ethylene glycol based antifreeze will be difficult to 
verify. (Comparatively, it took 17 years to conclusively prove that 
child-resistant caps were effective in reducing child exposures in 
general.)
    Denatonium benzoate is required to be added to ethylene glycol 
based antifreeze in the United Kingdom, Japan, and Australia. There is 
also currently one ethylene glycol antifreeze manufacturer in this 
country that voluntarily adds denatonium benzoate to their aftermarket 
antifreeze products (5 percent of all antifreeze currently used in the 
United States). Lastly, Massachusetts has introduced a bill to require 
the addition of denatonium benzoate to all ethylene glycol based 
antifreeze in their state.
    Fiscal Impacts--N/A.
Findings
    The lethal oral dose of ethylene glycol is a factor of over eight 
smaller than propylene glycol for humans, making this a compelling 
argument for its use. And though wide use of propylene glycol based 
antifreeze could prevent a majority of unintentional animal and human 
poisonings, mandating a change at this time to propylene glycol based 
formulations will cause significant industry hardship.
    Addition of an aversive bittering agent, such as denatonium 
benzoate, would reduce human poisonings and likely prevent a 
significant number of animal poisonings. The addition of denatonium 
benzoate is relatively inexpensive and would be simple for industry to 
implement. There appear to be no compelling reasons not to mandate the 
addition of denatonium benzoate to all ethylene glycol based products. 
The health and safety of all residents and pets and wildlife of the 
state can benefit from this endeavor.
VI. Funding Information--N/A.

    Senator Allen. Senator Pryor?
    Senator Pryor. Thank you, Mr. Chairman.
    One thing I want to do today--you all know I support the 
legislation, but I want to ask some hard questions, because 
Senator Allen and I know that our colleagues will ask us these 
hard questions, and I'd like to get your answers on these. He's 
already asked some of them.
    But, Mr. Bye, if I can start with you, I know that one 
option in framing this legislation would be that you could use 
either DB or some other bittering agent. And I think you 
mentioned, a few moments ago, that other bittering agents have 
not been approved, or have not been tested in automotive--in an 
automotive system like what you have with DB. But are there 
other reasons why we shouldn't expand this to DB and other 
agents?
    Mr. Bye. All I can speak to--again, we are far from being 
experts in the world of bitterants. Maybe one of the other 
panelists would have a deeper point of view on this, but we've 
really just been trying to work with them in the bitterants 
that they feel are the most effective and most--strongest 
bittering agent there is, as you pointed out earlier. So, 
that's really all we've done, is follow their lead that that is 
the one to use, and, therefore, that is the one we've tested, 
because we produce it, in a cooling system. But, beyond that, 
we haven't really looked at any other bittering agents, just 
been doing what they've been asking us to do.
    Senator Pryor. OK, great. Let me followup on another one of 
Senator Allen's questions. A few moments ago he asked about DB 
and other sources of it. And, just to be clear, as I understand 
it, DB is not proprietary. In other words, it's out there in 
the public domain. Is that your understanding?
    Mr. Bye. That's my understanding.
    Senator Pryor. And there either are now, or could be, 
multiple sources for DB.
    Mr. Bye. I know of at least three today.
    Senator Pryor. That exist today? OK, great.
    Ms. Amundson, let me ask you a question. And it's just a 
concern that some people might have that if you add this 
bittering agent, somehow maybe the industry or the word might 
get out that suddenly antifreeze is safe--so-called ``safe''--
and people might get complacent about the storage of it or the 
disposal of it. Do you have any comments on that?
    Ms. Amundson. I greatly appreciate the question. It's 
certainly the position of the Doris Day Animal League that we 
bear a responsibility to consumers to provide the information 
that's necessary to them to take a careful look at this issue. 
And, in doing so, we have never positioned ourselves as 
supporting the addition of DB to antifreeze as the panacea to 
the problem.
    That said, I think we need to be careful when we're 
assessing these sorts of mandates, or even enforcing these 
sorts of mandates, on the regulated industries. Let's keep in 
mind the simple fact that seatbelts certainly save lives, but 
they don't save every life. And, unfortunately, childproof 
safety caps have been very successful in saving children's 
lives, but, if improperly used, clearly there may still be some 
difficulties there.
    Our position has been, we need to use all the tools 
available to us--and that is foil seals, childproof safety 
caps, the addition of DB, and good, solid public education--to 
ensure that people still recognize that ethylene glycol 
antifreeze is a toxic chemical.
    Senator Pryor. OK, great.
    Let me ask, too, we mentioned--Senator Allen mentioned 
these two different reports. There's one in 1992 from the 
Consumer Products Safety Commission, and there's also one in 
2001 from California. I'd just like to ask the panel 
generally--all of you all can answer this, if you want--what is 
the difference in those reports? It seems to me that, if you 
look at them, the 2001 report is a much better, much stronger 
report for the position that DB is OK and this actually is a 
good idea. Can I--whoever----
    Yes?
    Ms. McCoy. Mr. Chairman, Senator, I guess I would just 
simplify it by stating that antifreeze has to be properly 
disposed of, already. If it's--even with the bittering agent, 
it's--which is, I believe, 30-to-one-million parts, it's a very 
minute amount, so--I'm not diminishing the fact that there 
could be some environmental issue, but I personally did a lot 
of research, and had our legislature look for me, and no one 
could find anything definitive about it.
    So, given the fact that it has to be properly disposed of 
without the bittering agent, I think that that's the answer. 
So--Thank you, Senator.
    Senator Pryor. OK. Anybody else want to comment on the two 
reports?
    Ms. Amundson. If I may, thank you.
    I will say that my comprehension of the CPSC's report is 
that they were asked to take a very careful, narrow look at a 
couple of different potentials for bittering agents, and the 
conclusions in that report clearly stated that their 
recommendation was that DB be added to some consumer products, 
and antifreeze was one of them. While there may be information 
that is not necessarily collated in that report, I think the 
reflection of the 2001 report from the California Integrated 
Waste Management Board provides us with more comprehensive 
information on some of the questions that you're raising today, 
and that is because it is their job to take a careful look at 
what environmental consequences are going to be. And they were 
taking a look at this issue specifically by raising the 
question, What can we do with antifreeze to try to ensure that 
kids and animals are not ingesting it? And their conclusion 
clearly was to support the California bill.
    Senator Pryor. As part of these studies, have they studied 
whether, when you add DB, actually you see child deaths go 
down? Has anyone done that detail of study? Do you know? My 
sense is, that may be beyond the scope of any study that's been 
done.
    Ms. Amundson. Senator, I would say it's probably beyond the 
scope of existing studies. But I think it's a careful point 
that we need to make here, and that is, fortunately there are 
not a lot of children who do actually die from ingesting 
antifreeze. It is much more on the animal side.
    Senator Pryor. And I know--as I understand it, DB has been 
used in antifreeze for some time in the United Kingdom, Japan, 
and Australia. Do we know--do we have studies from those 
countries? And do we have data and information from those 
countries? Does anybody know?
    [No response.]
    Senator Pryor. I'm not aware of any. I think our staff was 
looking for some, but I'm not aware of any.
    Senator Allen. Mr. Bye, do you all sell--excuse me.
    Senator Pryor. Go ahead.
    Senator Allen. Do you all sell in these countries? Japan? 
Australia has a lot of animals.
    Mr. Bye. We sell almost no antifreeze outside of the United 
States. We sell mostly to retail, and outside of the United 
States it's not a big retail market, so we sell less than 1 
percent of our sales outside the United States.
    Senator Pryor. OK. And, Mr. Bye, let me ask you, I've heard 
the figure ``30 parts per million.'' What is that, about a drop 
per gallon?
    Mr. Bye. It's a minuscule amount. I'm not a chemist, but 
it's a tiny amount, and--but that tiny amount is highly 
effective, as one who tasted bitterant the other day in a 
minuscule amount. And you don't ever want to do that again.
    [Laughter.]
    Senator Pryor. Let me ask you----
    Mr. Bye. I just wanted to be prepared.
    [Laughter.]
    Senator Pryor. Yeah, great. You didn't bring any for us to 
drink today.
    [Laughter.]
    Mr. Bye. Be careful.
    [Laughter.]
    Senator Pryor. Let me ask you, Mr. Bye, while we have you 
here, part of your company's support for this legislation is 
some--there's a provision that you will not be held liable 
under the law. Could you explain your company's rationale, what 
you accomplish by that?
    Mr. Bye. Sure. It's, I think, pretty straightforward. We 
are, again, experts at the product we make, prior to bitterant, 
and the inhibitors and chemicals therein, in the antifreeze, 
and their effect and what they're designed to do in a car's 
cooling system. And, to that end, we're more than happy, and 
always have taken full--and assumed full responsibility for any 
liability of those products.
    But we are not experts, and have had no reason to be 
experts in the world of bitterants, much like any other 
chemical. In this case, no pun intended, we become the 
``vehicle'' for delivering that and what it does, but we've 
never had a reason to understand its properties, in any great 
detail.
    And so, for that end, I think just to make this whole thing 
work we would be happy to assume liability for our end of the 
product line, and hope that the people that provide that--
because it is not part of a car's cooling system--would assume 
liability for their end and achieve what these people are 
looking for.
    Senator Pryor. OK. Would your company, or would the 
industry, be comfortable with a sunset on that liability 
provision in 10 or 15 years, or not?
    Mr. Bye. To be honest with you, we haven't talked about 
that, because we've always assumed that it would be something 
that would be separated from us. We could get back to you on 
that and look at that, but we have no position on that, 
currently.
    Senator Pryor. OK. And, also in terms of the industry, you 
maybe heard my question a few moments ago about--maybe the 
industry, or at least maybe the public perceiving--if the 
industry doesn't market it this way--but the public perceiving 
that somehow--by adding this chemical, that suddenly antifreeze 
becomes ``safe.'' Do you--has the industry thought about that, 
and thought about how they market it in such a way that the 
public will not be misled and will understand this is still a 
very dangerous product, just that it is--you've added a safety 
feature to it? What's your--how are you going to handle that?
    Mr. Bye. Sure. I would take the same position we've taken 
right along. And, as I mentioned in my earlier testimony, we've 
been supporters of the veterinary poison hotlines, and they 
would not want us to promote the fact that there is bitterant 
in the product, because it could lead to, sort of, a lax'd 
attitude, in their opinion. And we would fully support that. We 
would have no intentions of promoting the fact that their 
product was bittered. We would have no intentions of marketing 
it as a ``safer'' product. We would be doing it just for the 
case, as stated, that accidental spillages came in contact with 
an animal, and hope to deter them. But we wouldn't make any 
more point of it than that.
    Senator Pryor. And my last question--and maybe, Mr. Bye, 
you're the best, but whoever wants to try to answer this--is 
DB, itself, a toxin? Is it, in and of itself, poisonous or 
harmful to humans, do we know?
    Mr. Bye. I don't know.
    Ms. McCoy. Mr. Chairman, Senator, I just read something 
recently, that a diluted form of DB is actually used as a 
deterrent for thumb-sucking, so, it's--I don't think it is 
toxic. So----
    Senator Pryor. Does anybody else have any comments on that?
    Ms. Elder. Our data shows that--at the levels that would be 
used for an aversive or bittering agent, that it would not have 
acute toxicity.
    Senator Pryor. OK. Thank you for your time.
    Thank you.
    Senator Allen. Through? Well, all right. Well, thank you, 
Senator Pryor, for those questions.
    And I want to thank all of our witnesses for appearing 
today.
    From this hearing--the value of hearings is to adduce 
testimony and information and evidence that bolster or possibly 
modify legislation. It strikes me that what we have here is a 
consensus--consensus that adding DB to antifreeze would cost 
less than three cents a gallon--since I'm very frugal and 
always look at what the cost of things are. But for less than 
three cents a gallon, it is not going to eliminate risk, but it 
is going to reduce risk. That's a key thing from Senator 
Pryor's questions. And some of the testimony here is, you can 
add a bitterant to antifreeze, but it doesn't mean that you 
don't have to have the same cautions, as far as caps and 
warnings, and, obviously, also disposal. Representative McCoy's 
logic was just plain old common sense, you're still going to 
have to dispose of itssafely. It doesn't matter whether there's 
a bitterant or not in it. And by reducing this risk, we clearly 
are going to lessen and prevent harm somewhat to humans. But 
the greatest risk is to animals. The references to pets--people 
pay attention to when their dog or cat's gone, but there are 
also a lot of other animals out there. There's birds, fox, 
deer, other--that might lap some of that up in a driveway or 
somewhere else, and those don't get, necessarily, reported.
    The added point is, for less than three cents a gallon, 
reducing risk and harm to animals and humans, there's also no 
evidence that this will cause any environmental harm.
    Its seems to me, Senator Pryor, that we need to be moving 
on this. We've heard some very reasoned, logical analysis here 
today. Thank you all, all of our witnesses, for coming from all 
across the country and sharing your insight and also your 
passion, your passion for this. And we want to thank our 
friends from the Land of Enchantment for showing us the way 
here in Washington, D.C.
    Ms. McCoy. Thank you, Senator.
    Senator Allen. With that, I wish you all safe travels home. 
Hearing adjourned.
    [Whereupon, at 10:55 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
